                        Management Information Report

     Evaluation of the Control Environment at the Railroad Retirement Board

                        Report No. 02-08, August 1, 2002



                                   INTRODUCTION


This management information report presents the results of the Office of Inspector
General’s (OIG) evaluation of the control environment at the Railroad Retirement Board
(RRB).

BACKGROUND

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the health and welfare provisions of the Railroad Retirement Act
(RRA) which provide retirement-survivor benefits for eligible railroad employees, their
spouses, widows and other survivors. During fiscal year (FY) 2001, approximately
700,000 annuitants received benefits totaling $8.5 billion under the RRA.

The RRB also administers the Railroad Unemployment Insurance Act (RUIA) which
provides unemployment and sickness insurance to workers in the rail industry. During
FY 2001, the RRB paid $94.4 million to the 18,000 individuals qualifying for
unemployment benefits and the 24,000 individuals qualifying for sickness benefits under
the RUIA.

The RRB is administered by a three-member Board appointed by the President, by and
with the advice and consent of the Senate. Each member holds a term of office for five
years. Under the provisions of the RRA, one member is appointed upon
recommendations made by representatives of railroad employees and one member is
appointed from recommendations made by representatives of railroad employers. The
third member, designated to chair the agency, is appointed without the recommendation
of either employers or employees and cannot have an interest, financial or otherwise, in
any railroad employer or organization of railroad employees.

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

      •   effectiveness and efficiency of operations,
      •   reliability of financial reporting, and
      •   compliance with applicable laws and regulations.

In Standards for Internal Control in the Federal Government, the General Accounting
Office (GAO) has established five standards for internal control:
          •   control environment,
          •   risk assessment,
          •   control activities,
          •   information and communications, and
          •   monitoring.

A positive control environment is the foundation for all other standards, providing
discipline and structure as well as the climate that influences the quality of internal
control. The GAO has identified seven factors that affect the control environment of a
Federal agency:
          •   integrity and ethical values,
          •   commitment to competence,
          •   management’s philosophy and operating style,
          •   organizational structure,
          •   assignment of authority and responsibility,
          •   human capital policies and practices, and
          •	 the agency’s relationship with Congress and central oversight agencies
             such as the Office of Management and Budget.
Financial statement audits conducted by the OIG and predecessor auditors, Arthur
Andersen LLP and KPMG Peat Marwick, have cited the RRB’s overall control
environment as a material weakness every year since FY 1993. However, the three-
member Board believes that past reorganizations have eliminated the material
weakness. As a result, the RRB did not include the OIG’s findings concerning the
overall control environment as a material weakness in the statements of assurance that
were issued pursuant to the Federal Managers’ Financial Integrity Act, for FYs 1997
through 2001.

Reportable conditions are matters relating to significant deficiencies in the design or
operation of internal control that could adversely affect the agency's ability to record,
process, summarize, and report financial data. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the financial statements being audited may
occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.
OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this evaluation was to assess effectiveness of management in
establishing and maintaining a positive control environment during FY 2001 and FY
2002.

In order to achieve this objective, we assessed the applicability and impact of the seven
factors critical to the control environment. In making our assessment we considered the
findings of prior financial statement audits.

Fieldwork was conducted at RRB headquarters during October 2001 through February
2002.


                                EVALUATION RESULTS


The RRB’s control environment is not fully effective in creating a positive and supportive
attitude toward internal control. During our evaluation, we identified inadequacies
related to three of the seven control environment factors described by the GAO in their
Standards for Internal Control in the Federal Government:

       •   the communication of management’s philosophy;
       •	 the ability of the agency’s organizational structure to provide an adequate
          framework for planning, directing, and controlling operations to achieve
          agency objectives; and
       •	 the manner in which authority and responsibility are delegated throughout the
          organization.

We attribute these weaknesses to the manner in which the legislatively mandated three-
member Board has been implemented at the RRB. The three-member Board governing
body, as it has historically been implemented at this agency, precludes identification of
a cohesive management philosophy, focuses attention away from the objectives of the
organization as a whole and fragments responsibility.

Our criticism of the implementation of the three-member Board is not targeted at the
performance of any individual Board member, present or past. It is the OIG’s view that
the organizational form itself, regardless of any individual appointee, is ill-designed for
day-to-day management responsibilities. A multi-member governing body, such as the
RRB’s three-member Board is most effective when it restricts its involvement in
organizational operations to high level policy-setting.

As a result, the RRB’s overall control environment is not adequate to ensure that
agency financial statements will be free of material misstatements and prepared in
accordance with applicable guidance.
Recommendation

We recommend that the three-member Board limit its participation in agency affairs to
high-level policy-setting and vest responsibility for implementation to a newly created
position of Chief Executive Officer.

Management’s Response

The three-member Board disagrees with the finding and recommendation. The full text
of their response is presented as an appendix to this report.


Management’s Philosophy

Management’s philosophy and operating style determine the degree of risk the
organization is willing to take and management’s philosophy towards performance-
based management. The attitude and philosophy of management toward information,
systems, accounting, personnel functions, monitoring and audits and evaluations can
have a profound effect on internal control.

By legislative design, each Board member represents a different constituency, their
points of view are sometimes divergent. They do not speak with a single voice. Rather,
each member of the Board tends to function as a chief executive, with differing
management philosophies and operating styles. As a result, it is difficult for lower levels
of agency management to apply “management’s philosophy” because it is difficult to
discern, frequently undocumented, and in some cases, nonexistent.

At the RRB, management’s philosophy and operating style emanates from management
levels below the three-member Board. Each organization is influenced by the views of
the Board member that takes particular interest in their operations. For example, the
Labor Member has a natural interest in benefit payment operations that is consistent
with his position as a representative of rail labor. The Management Member often takes
an active interest in matters related to financial accountability.

The creation of a three-member Board to head the agency has been effective in
creating a balance between the interests of labor and management in the railroad
retirement program. However, the manner in which it has been implemented permits
the members’ divergent views to impact management at lower levels, leaving the
agency, regardless of political administration, without a recognizable philosophy or
operating style.

Organizational Structure

An entity’s organizational structure provides management’s framework for planning,
directing, and controlling operations to achieve agency objectives.
Arthur Andersen LLP first identified a material weakness in the RRB’s overall control
environment during their audit of the agency’s FY 1993 financial statements. The
auditors noted that the agency’s internal control environment was focused on control
objectives and techniques designed to meet the organizational responsibilities of
individual organizational units rather than those of the agency. At that time, the RRB’s
management structure was composed of 20 bureaus plus the three Board members
and their staffs.

During the succeeding years, we have observed reductions in the number of agency
operating units as well as the creation of an Executive Committee. The present
administrative organization consists of 16 operational units grouped into six major
organizations whose directors report to the three-member Board.

The RRB’s organizational structure is inherently flawed because it lacks a single chief
executive officer. The lack of a single chief executive officer leaves accountability and
strategic leadership vested at too low a level of agency management to ensure timely,
effective action on matters that could impact the financial reporting.

The present organizational structure impedes the resolution of problems because it does
not offer the kind of top-down leadership that fosters cross-organizational teamwork.
Management at the operational level cannot look directly to the three-member Board for
leadership.

As in the past, the three-member Board continues to have significant involvement in the
day-to-day operational affairs of the agency. For example, the three-member Board
must approve the travel plans and vouchers of key executives; approve requisitions
over $100,000; personnel appointments above the GS-13 level; and personnel
appointments at any level when four or more similar positions are being filled.

However, the Board itself is not readily approachable as an entity. Assistants to the
various Board members play an intermediary role. Each Board member fields
assistants to represent them in discussions with lower levels of management, adding a
layer of bureaucracy to an already highly structured management environment.


Delegation of Authority and Responsibility

The control environment is also affected by the manner in which authority and
responsibility are delegated throughout the organization.

Within the RRB, authority and responsibility flow from the three-member Board to the
heads of the six major organizational units. There is no Chief Executive Officer.

In 1999, the three-member Board approved creation of an Executive Committee. Under
the direction of a Senior Executive Officer, the Executive Committee was designated to:
   •   oversee the day-to day operations of the agency;
   •	 makes recommendations to the three-member Board on agency-related policy
      and issues; and
   •	 promote coordination and communication on matters of agency-wide policy and
      direction.

The Executive Committee is also responsible for oversight and problem-solving
regarding cross-organizational internal control issues.

Although the Executive Committee created a new forum for cross-organizational
coordination, it did not represent a departure from the RRB’s historic organizational or
power structure. The Executive Committee is composed of the six top agency
executives who, prior to the creation of that committee, directed the agency’s day-to-day
operations through their respective positions in the established hierarchy. Each
member of the committee reports directly to the three-member Board. The agency’s
fundamental internal relationships remain unchanged.

The three-member Board’s reluctance to centralize authority below Board-level has
resulted in a kind of administrative inertia which impedes, rather than facilitates,
problem resolution.


Effect on Internal Control, Financial Reporting and Compliance

The OIG has observed the adverse effect of a weak control environment on the ability of the
agency to respond to new challenges. A discussion of some notable examples is presented
below.

Internal Control

During FY 2001, we conducted an extensive review of information security. During that
review process we noted that the security program lacked a strong security framework
with a central management focal point. The absence of such a framework and focal
point was cited as the underlying cause for many of the control weaknesses identified
by the audit.

Our observation that security responsibilities were distributed throughout the agency
without guidance or oversight from a strong central authority is consistent with an
apparent reluctance to concentrate cross-organizational authority below the Board level.

Financial Reporting

Accountability for problems rests with the organizational unit that has apparent responsibility
for that functional area of agency operations. The resources of the larger organization are
not brought to bear on problems. As a result, the agency has experienced difficulties in
resolving financial accounting and reporting issues that would have benefited from a cross-
organization problem-solving initiative.

During the OIG’s audit of the RRB’s financial statements for the fiscal year ended
September 30, 2001, we experienced, not for the first time, difficulty in obtaining the
required management representation letter from the three-member Board. This
unnecessary complication sends lower levels of agency management and staff a
message that indicates a lack of support for the financial reporting process.

The public accountants, and later the OIG, raised concerns about the impact of benefit
payment errors on the financial statements and the accuracy of accounting estimates
used to record and report the RRB’s financial interchange with the Social Security
Administration. In both of the above situations, the responsibility for resolving the
auditor concerns remained with the organizational unit most visibly responsible for the
related operational area.

However, both matters would have benefited from the attention of other professional
specialties. In neither case, did the three-member Board provide the leadership that
would have facilitated the problem resolution process. As a result, the agency was
repeatedly cited for non-compliance with the RRA as well as material internal control
weaknesses that were reported in conjunction with disclaimers of opinion on the annual
financial statements.

Compliance

The 1981 and 1983 amendments to the Social Security Act reduced or denied benefits
in some cases in which benefits had previously been paid under that Act. Although the
RRA was not similarly amended, the RRB applied the Social Security Act amendments
to the tier I portion of benefits paid under the RRA. An RRA annuity may be composed
of up to four parts; tier I is computed using Social Security formulae.

Based on the 1981 amendments to the Social Security Act, the RRB denied tier I
benefits to persons who would have otherwise qualified for benefits based on the
children aged 16 to 18 in their care. Benefits had previously been payable until a child
reached age 18. Similarly, the 1983 amendments led the RRB to deny tier I benefits to
incarcerated felons.

The RRB did not seek conforming legislation until 1991, when it lost a second court
challenge by a mother who had been denied benefits because she no longer had a child
under age 16 in her care. The agency did not change its policy toward adjudicating
such cases until 1992 when it lost in a third case.1

1
    The three cases were:


        •    Costello v. Railroad Retirement Board, Eighth Circuit, 1985;
        •	   Claudette Johnson v. Railroad Retirement Board, Eleventh Circuit,
             1991; and
The RRB continued to withhold the tier I benefits of incarcerated felons pursuant to the
1983 amendments to the Social Security Act until 1995 when the agency was
threatened with legal action by a knowledgeable appellant who cited the Nancy Johnson
case.

The slow progress of this issue, 14 years, raises questions about the agency’s ability to
identify and resolve matters that could represent a source of future financial liability.


Material Weakness

The RRB’s control environment is not fully effective in creating a positive and supportive
attitude toward internal control. As discussed in the preceding sections of this report,
we believe that this weakness is due to the level of involvement that the agency’s three-
member Board has traditionally had on day-to-day operations.

As in the past, we have concluded that the overall control environment is a source of
material weakness in internal control. Experience has shown that the control
environment does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the financial statements being audited may
occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.




      •	 Nancy Johnson v. Railroad Retirement Board, District of Columbia
         Circuit, 1992.
               REINVENTING THE RAILROAD RETIREMENT BOARD


The RRB operates in a dynamic environment that puts stress on its internal control
framework. The agency’s customer base is falling rapidly while the cost of doing
business is rising. During the last decade of the 20th century:

      •   railroad employment dropped by approximately 14%;
      •   the number of annuitants fell by 23%; and
      •   the agency’s administrative costs increased by 15%.

In addition, the Railroad Retirement and Survivors Improvement Act of 2001 altered the
structure of the benefits and financing under the RRA. This legislation also included
innovative provisions providing for the investment of RRA trust fund monies in non-
government securities and the transfer of benefit payment operations to a private, non-
Federal disbursement agent.

In 1995, the RRB’s Inspector General published the first in a series of proposals
challenging the three-member Board to re-examine the agency’s organizational
structure and the way in which it does business.

The six reinvention proposals published since 1995 included recommendations for:

      •   the redesign of the agency’s organizational structure;
      •   reduction of the size and scope of the agency field service;
      •	 transfer of adjudicative and administrative responsibilities for Social Security
         Equivalent Benefits to the Social Security Administration; and
      •	 replacement of the agency’s historical form, a Federal agency headed by a
         three-member Board, with a government corporation.

However, the three-member Board has not been responsive to these proposals and the
IG has observed only superficial changes in the agency’s organizational structure and
field service operations. The RRB continues to operate within a traditional bureaucratic
framework.

As in the past, the OIG will continue to challenge the three-member Board to bring this
agency into the 21st century.
